No.
IN THE

SUPREME COURT OF THE UNITED STATES

RONALD LEWIS COLEMAN, JR.,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Scott Graham
Counsel of Record for Petitioner
SCOTT GRAHAM PLLC
1911 West Centre Avenue, Suite C
Portage, Michigan 49024-5399
Telephone: 269.327.0585
E-mail: sgraham@scottgrahampllc.com
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner moves this Court pursuant to Rule 39 for leave to proceed in forma
pauperis. Petitioner previously moved to proceed in forma pauperis in the United
States Court of Appeals for the Sixth Circuit, which granted this motion and
appointed undersigned counsel to represent Mr. Coleman for purposes of pursuing a

writ of certiorari in this Court (pursuant to 18 U.S.C. ยง 3006A).

Respectfully submitted,
Ronald Lewis Coleman, Jr., Petitioner

eo _
Date: January 20, 2021 SLA 2

Scott Graham

Counsel of Record for Petitioner
SCOTT GRAHAM PLLC

1911 West Centre Avenue, Suite C
Portage, Michigan 49024-5399
Telephone: 269.327.0585

E-mail: sgraham@scottgrahampllc.com
